Jeremy C. Marwell jmarwell@velaw.com
Tel +1.202.639.6507 Fax +1.202.879.8997

March 31, 2021
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Darius Wayne Haws v. State of Idaho, No. 20-1095

Dear Mr. Harris:
I represent the petitioner in the above-referenced case. The petition for a writ of certiorari was
filed on February 4, 2021, and was placed on the docket on February 10, 2021. Following the Court’s
March 1, 2021 order requesting a response to the petition, the respondent filed its response on March 30,
2021. The petition is thus currently scheduled to be distributed on April 14, 2021.
Pursuant to this Court’s March 19, 2020 order, I respectfully request that the Court delay
distribution of the petition in this case until April 27, 2021. Counsel for respondent does not object to the
requested extension.
Difficulties relating to the COVID-19 pandemic warrant this brief, 13-day extension so that the
petitioner has adequate time to prepare and file his reply before the case’s distribution. Due to the COVID19 pandemic, the petitioner’s counsel are continuing to work from home while also managing familial
responsibilities. In addition, the petitioner’s counsel are working on this case pro bono with students in
the University of Virginia School of Law Supreme Court Litigation Clinic. The pandemic has interrupted
the Clinic’s operations, requiring the petitioner’s counsel to interact with the students exclusively through
electronic means. A 13-day extension would facilitate student participation in the preparation of the reply.
Pursuant to this Court’s April 15, 2020 order, I am filing this letter solely by electronic filing.
Sincerely,
/s/ Jeremy C. Marwell
Jeremy C. Marwell
cc:

Respondent’s Counsel of Record Kenneth K. Jorgensen (by email)

Vinson & Elkins LLP Attorneys at Law

1001 Fannin Street, Suite 2500

Austin Dallas Dubai Houston London New York

Houston, TX 77002-6760

Richmond Riyadh San Francisco Tokyo Washington

Tel +1.713.758.2222 Fax +1.713.758.2346 velaw.com

